                              CLOSEOUT FOR M91010003




           --
         On J a n u a r y e 1991, OIG was informed
 the Division '
-1
 scientist at
                    that, since

 data colleckl under NSF award
                                 i
                                                 a -yb
                                                n the Directorate
                                            1989, the complainant,
                                   had made repeated requests t
                                                                               program officer in


                                                                                 o the subject, for
                                                       In response to each of the complainant's
 requests the subject had promised, but subsequently failed, to provide copies of the data. At the
 complainant's request the program officer had attempted, several times, to secure the data from
 the subject, and had also been unsuccessful.
                                                                                  -
         OIG found that the NSF project was awarded to the                                    , the
institution, and the complainant had worked under the subject's direction collecting this and other
data. The subject had left the institution for a position with the federal government. On his
departure, and relocation from the institution, the subject apparently took the only copies of
some data collected during the project. The complainant wanted the data because it was
important for his current project. It provided a rare, detailed, historical account of the biotic
composition of a site that would greatly assist current environmental assessments of the site.

        On ~ e b r u a r ~ m 1 9 9OIG
                                  1 , contacted the subject and requested that the data be provided
to the complainant. OIG explained that the open sharing of data, samples, and other research
results in response to requests from other investigators was important to NSF. In response to
this and our subsequent requests the subject agreed to supply the data but failed to do so. Over
the next 3 years OIG contacted the subject periodically with a request to release the data. Each
request was met with an unfulfilled promise to release the data. Although the subject eventually
agreed to release the data to a repository where it would be freely available to interested
scientists, he failed to do so.

        OIG contacted the complainant and learned that he still desired the data and that the data
had increased in historical value and in significance to current projects. On January)      1994,
OIG informed the scientist that the National Science Board expected "investigators to share with
other researchers, at no more than incremental cost and within a reasonable time, the data,
samples, physical collections, and other supporting materials created or gathered in the course
of the work" supported by NSF. The subject's repeated failure to supply the requested data was
not in conformance with this expectation. OIG informed him that his repeated failure to furiLl
his promise had mised concerns about the data, and that in some circumstances the failure to
share data could be considered a serious deviation from accepted practice within the scientific
community. OIG informed the scientist that if the data were not released by a specified date it
would begin an investigation into the case.



                       Page 1 of 2                                          M9 1-03
                             CLOSEOUT FOR M91010003
       OIG subsequently confirmed that the subject had released the data to the repository. The
manager of the repository confirmed that the data were historically valuable and would be
extremely useful in current research projects. OIG considered the release of the data to the
repository a satisfactory resolution to the case. This case was closed without further action.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, Counsel to IG, IG




                     Page 2 of 2
